                                                                Issue Date
                                                                             April 16, 2010
                                                                
                                                                Audit Report Number
                                                                             2010-KC-0001




TO:         Milan M. Ozdinec, Deputy Assistant Secretary, Office of Public Housing and
              Voucher Programs, PE


            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, Kansas City,
               Region VII, 7AGA


SUBJECT: HUD Took Appropriate Steps to Improve Its Controls over Net Restricted Assets
           but Overpaid Section 8 Set-Aside Funds to One Public Housing Agency


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the U.S. Department of Housing and Urban Development’s (HUD)
             Office of Public Housing and Voucher Programs’ management of public housing
             agency net restricted assets because Congress directed that HUD use these net
             restricted assets to replace $750 million in rescinded Section 8 funds. We also
             audited HUD’s 2009 housing choice voucher set-aside fund awards because
             funding shortfalls for unforeseen circumstances and higher than average leasing
             were estimated to be more than $46 million and $31 million, respectively, as of
             August 2009.

             Our objectives were to determine whether HUD reasonably ensured that public
             housing agencies properly managed their housing choice voucher net restricted
             assets and whether HUD set-aside fund awards for unforeseen circumstances and
             higher than average leasing rates were appropriate.
What We Found


           HUD had already discovered that it did not have accurate information about the
           net restricted assets of some public housing agencies and was taking appropriate
           steps to improve its controls over net restricted assets.

           Also, for 1 of the 10 set-aside fund awards reviewed, HUD did not ensure that
           about $18,000 was used for its intended purpose. HUD immediately remedied the
           problem.


What We Recommend


           We recommend that the Office of Public Housing and Voucher programs (1)
           rectify the discrepancy for the award overpayment, (2) check the accuracy of
           other unforeseen circumstance awards made for similar tenant income reductions
           and rectify any discrepancies, and (3) correct the process for future similar
           awards.

           HUD agreed to implement these recommendations and at the exit conference on
           March 5, 2010, and in its response to the report, told us it had already addressed
           the recommendations. Therefore, we plan to close the recommendations upon
           issuance of the report.

Auditee’s Response


           We provided the discussion draft to HUD on March 1, 2010 and requested a
           response by March 31, 2010. HUD provided a response on March 31, 2010.
           HUD generally agreed with our finding. The complete text of the auditee’s
           response can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit
      Finding 1: HUD Took Appropriate Steps to Improve Its Controls over Net        5
                 Restricted Assets but Overpaid Section 8 Set-Aside Funds to One
                 Public Housing Agency

Scope and Methodology                                                               8

Internal Controls                                                                   9

Appendixes
    A. Schedule of Questioned Costs                                                10
    B. Auditee Comments                                                            11




                                            3
                     BACKGROUND AND OBJECTIVES


The Section 8 Housing Choice Voucher program is the Federal Government’s major program for
assisting very low-income families, the elderly, and the disabled in obtaining decent, safe, and
sanitary housing in the private market. Participants are free to choose any housing meeting
program requirements. The U.S. Department of Housing and Urban Development (HUD)
provides Federal funds to public housing agencies to make housing assistance payments to
landlords on behalf of the families. The families pay the difference between the actual rent and
the subsidized amount. According to June 2009 Voucher Management System data, almost
2,400 public housing agencies administer Housing Choice Voucher programs for about two
million families.

HUD uses the Voucher Management System to monitor and manage the public housing
agencies’ use of vouchers. Agencies enter data that enable HUD to fund, obligate, and disburse
funding in a timely manner, based on actual agency use.

Since January 2005, HUD has used a budget-based approach for housing choice voucher
funding. This funding is a fixed amount based on the prior-year’s cost, and public housing
agencies must maintain any budget authority that exceeds actual program expenses as net
restricted assets.

The objectives of the audit were to determine whether HUD reasonably ensured that public
housing agencies properly managed their housing choice voucher net restricted assets and
whether HUD set-aside fund awards for unforeseen circumstances and higher than average
leasing rates were appropriate.




                                               4
                               RESULTS OF AUDIT

Finding 1: HUD Took Appropriate Steps to Improve Its Controls over
Net Restricted Assets but Overpaid Section 8 Set-Aside Funds to One
Public Housing Agency

HUD took steps to ensure that public housing agencies properly managed their housing choice
voucher net restricted assets but incorrectly calculated 1 of the 10 set-aside fund awards
reviewed. The incorrect calculation occurred because HUD considered it reasonable to award
funds for housing assistance payment increases not yet known or reported. As a result, HUD
awarded $17,992 more than the public housing agency was authorized to receive.



 HUD Discovered a Weakness in
 Its Voucher Management
 System Management

              The 2009 Omnibus Appropriations Act (Act) reduced HUD’s Section 8 funding
              allocation of $16 billion by $750 million. Congress directed HUD to make up the
              reduction by adjusting the funding allocations of public housing agencies based
              on the amount of each agency’s net restricted assets shown in HUD’s Voucher
              Management System. To ensure that it had accurate information upon which to
              base the funding allocations, HUD advised public housing agencies in January
              2009 to update their net restricted asset balances in the Voucher Management
              System. During this validation, HUD discovered that the Voucher Management
              System did not always have accurate information and some agencies did not have
              the amount of net restricted assets they should have had.

              HUD hired a contractor to determine the cumulative amount of each agency’s net
              restricted assets. HUD plans to compare this amount to the agency’s net restricted
              assets reported in the audited financial statements and reconcile any differences.
              It will also use this amount as the baseline amount for future agency financial
              statement analysis.

              During this process, HUD also identified agencies that might have been required
              to terminate vouchers due to funding shortages and worked with them to prevent
              any effect on voucher holders.




                                              5
 HUD Established Requirements
 for Awarding Set-Aside Funds


          The Act also set aside $100 million to help public housing agencies pay for
          increased program costs due to unforeseen circumstances, higher than average
          leasing rates, and other things. In Public and Indian Housing Notice 2009-13,
          HUD required agencies to provide sufficient evidence for HUD to determine a
          funding amount. HUD gave one agency $17,992 more than the supporting
          documentation warranted because it based the award on projected rather than
          actual need. HUD considered it reasonable to award funds for housing assistance
          increases not yet known or reported and intended the extra funds to pay for any
          increases that might have occurred from July through December 2009. However,
          HUD’s policy of awarding set-aside funds based on a projection of need did not
          ensure that the $17,992 would be used in accordance with the Act.


 HUD Immediately Resolved the
 Issue


          When we informed HUD of the discrepancy, the Office of Public Housing and
          Voucher Programs immediately contacted the agency and obtained documentation
          showing that the agency spent the funds for eligible expenses.

          We did not pursue similar awards because the unsupported amounts are likely to
          be small and because the public housing agencies would likely have had similar
          additional increases in housing assistance payments for which the funds were
          intended.


Management Decision and
Recommendation
Implementation


          The Office of Public Housing and Voucher Programs reached and implemented
          acceptable management decisions for the recommendations. The management
          decisions and final actions will be entered in the department audit resolution and
          tracking system upon report issuance. We did not verify the implementation.




                                           6
    Recommendations



                 We recommend that the Office of Public Housing and Voucher Programs

                 1A. Review the accuracy of other set-aside fund awards made for similar
                     unforeseen circumstances, rectify any discrepancies, and pursue the return of
                     any excess funding not used for the intended purpose.1

                 1B. Ensure that the policies for any similar future set-aside fund awards provide for
                     proper use of the funds.




1
  The Office of Public Housing and Voucher Programs has already resolved the one exception reported in this
finding. The amount that would have been classified as unsupported in this finding, had it not been resolved, would
have been $17,992. Accordingly, we included that amount in appendix A, Schedule of Questioned Costs.

                                                         7
                        SCOPE AND METHODOLOGY

Our scope was net restricted assets from January 2007 through June 2009. We also reviewed
2009 Federal fiscal year housing choice voucher set-aside fund awards HUD made for public
housing agency unforeseen circumstances and increased leasing.

To accomplish our objectives, we reviewed applicable laws, regulations, and other HUD
requirements; interviewed HUD officials; and reviewed HUD’s supporting documentation for
and calculations of selected set-aside fund award amounts.

We used representative, nonstatistical samples to determine whether HUD had supporting
documentation for the set-aside fund awards made for unforeseen circumstances and increased
leasing and to test the calculations of the amounts. We randomly selected 5 agencies from the 74
receiving set-aside fund awards for unforeseen circumstances and 5 from the 152 receiving set-
aside fund awards for increased leasing under Public and Indian Housing Notice 2009-13,
Implementation of the Federal Fiscal Year 2009 Funding Provisions for the Housing Choice
Voucher Program, issued May 6 2009.

We relied on electronic data from HUD’s Voucher Management System for background use
only. We used Voucher Management System data in our calculations but because our objective
was only to determine the accuracy of HUD’s calculations using the same electronic data, we did
not assess the reliability of the electronic data.

We performed portions of the audit in our Seattle, WA, office from October through December
2009 and conducted the fieldwork at the Office of Public Housing and Voucher Programs at
HUD headquarters in Washington, DC, in October and November 2009.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               8
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

      Program operations,
      Relevance and reliability of information,
      Compliance with applicable laws and regulations, and
      Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined that the following internal controls were relevant to our audit
              objectives:

                 Policies and procedures intended to ensure that program funds were used only
                  for authorized purposes.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses

              We assessed the relevant controls identified above and found no significant
              weaknesses.




                                                9
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS

                           Recommendation
                                  number         Unsupported 1/

                                         1A              $17,992


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures. When we notified HUD officials of the
     discrepancy, they immediately took steps to confirm that the public housing agency spent
     this amount for the legislated purpose.




                                            10
Appendix B

             AUDITEE COMMENTS




                    11
12
